TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Invoice Audit of Fees Paid Under the
                         Private Debt Collection Initiative



                                       December 26, 2007

                              Reference Number: 2008-10-054




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 December 26, 2007


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Invoice Audit of Fees Paid Under the Private Debt
                                Collection Initiative (Audit # 200710003)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) fees paid
 under the Private Debt Collection initiative. The overall objective of this review was to
 determine whether selected invoices submitted and paid under task order numbers
 TIRNO-06-K-00179, TIRNO-06-K-00181, and TIRNO-06-K-00182 were appropriate and in
 accordance with the contract terms and conditions. We initiated this audit to determine whether
 the invoices submitted by the contractor and paid by the IRS were accurate, supported, and
 allowable.

 Impact on the Taxpayer
 Contract expenditures represent a significant outlay of IRS funds. The Treasury Inspector
 General for Tax Administration has made a commitment to perform audits of these expenditures.
 To the extent our reviews assist the IRS in identifying and recovering inaccurate, unsupported,
 and unallowable charges, contract expenditures are reduced and taxpayer funds are saved.

 Synopsis
 Our review determined that the approximately $2.7 million in fees charged on the 18 invoices we
 audited were accurate, supported, and allowable. We did identify minimal discrepancies in fee
 charges that were insignificant to our overall conclusion.1 These charges were reported to the


 1
   These fee charges (32 of the 500 transactions reviewed) totaled $297 and related to installment agreement costs
 that were initially included in the contractor’s fee but were later recovered through offsets according to IRS officials.
                                         Invoice Audit of Fees Paid Under the
                                           Private Debt Collection Initiative



IRS under separate cover and the IRS later informed us that these charges were remedied in
subsequent invoices outside the scope of this audit.
The Treasury Inspector General for Tax Administration Office of Audit Small Business and
Corporate Programs staff is currently performing a program audit of this initiative.2 The overall
objective is to evaluate the effectiveness of the implementation of the Private Debt Collection
initiative. Subobjectives include an evaluation of the appropriateness of case resolution through
case reviews, contractor’s compliance with laws and procedures, oversight and the Quality
Review process, taxpayer satisfaction survey and results, Taxpayer Advocate Service referrals,
and taxpayer complaints against the contractors. The results of that audit will be reported
separately.
In performing this audit, we limited our audit procedures to conducting interviews with the
Contracting Officer and the Contracting Officer’s Technical Representative to determine whether
the contractor’s deliverables were satisfactory. Based on these limited auditing procedures,
nothing came to our attention that would lead us to believe there were significant problems with
the deliverables associated with the contract. However, a final conclusion concerning contractor
performance is contingent upon the results of the program audit.

Recommendations
We made no recommendations in this report and, therefore, did not require a formal written
response from the IRS. However, key IRS management officials reviewed the report prior to
issuance and agreed with the results of our review.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




2
    Private Debt Collection – Phase III (Audit # 200730009).
                                                                                                    2
                                             Invoice Audit of Fees Paid Under the
                                               Private Debt Collection Initiative




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 3
          Contract Charges and Invoice Verification Process .......................................Page 3
          Contract Deliverables Were Acceptable.........................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 6
          Appendix II – Major Contributors to This Report ..........................................Page 8
          Appendix III – Report Distribution List .........................................................Page 9
          Invoice Audit of Fees Paid Under the
            Private Debt Collection Initiative




             Abbreviations

CO     Contracting Officer
COTR   Contracting Officer’s Technical Representative
IRS    Internal Revenue Service
                                       Invoice Audit of Fees Paid Under the
                                         Private Debt Collection Initiative




                                             Background

The American Jobs Creation Act of 2004,1 signed by the President in October 2004, created
Section 6306 of the Internal Revenue Code permitting private sector debt collection companies
to collect Federal tax debts. As a result, the Internal Revenue Service (IRS) established a Private
Debt Collection initiative.2 The IRS implemented this initiative in two stages, a limited
implementation in Fiscal Year 2006 and full implementation in Fiscal Year 2008.
In Calendar Year 2006, the IRS awarded three task orders against an existing General Services
Administration Federal Supply Schedule contract, Financial and Business Solutions, Special
Item Number 520-4, Tax Collection Services, on a fee-for-service basis to three individual
contractors. Fees were to be paid at a rate specified in the designated pricing schedule.
During December 2004, the IRS had $7.7 billion in delinquent tax debt classified as potentially
available for the limited implementation phase of the initiative. Approximately $5.5 billion of
this amount was low-priority workload that would likely be eligible for placement with Private
Collection Agencies (contractors). The IRS expected to use the additional $2.2 billion as later
referral accounts, since there was no likelihood of these debts being assigned to an IRS
employee.
Under the initiative, the IRS is authorized to refer delinquent tax debts to the contractors for tax
collection services. The IRS will refer delinquent tax receivables to the contractors only if it
determines that a referral meets the terms of the contract. The debts will be for individual
income taxes and may range from 30 days delinquent until 4 years prior to the expiration of the
statute of limitations for collection on Federal tax debt. The statute of limitations for collection
on Federal tax debt generally expires 10 years from the date of assessment. The debts will be
comprised of tax assessments, penalties, interest, and other miscellaneous items. As of
April 2007, the IRS processed 18 invoices from the 3 contractors involved in the Private Debt
Collection initiative totaling approximately $2.7 million.




1
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
  Section 6306 of the Internal Revenue Code authorizes the IRS to enter into qualified tax collection contracts. A
qualified tax collection contract is for the services of any person (other than an officer or employee of the
Department of the Treasury) to locate and contact any taxpayer specified by the Secretary of the Department of the
Treasury to request full payment from such taxpayer of an amount of Federal tax specified by the Secretary and, if
such request cannot be met by the taxpayer, to offer the taxpayer an installment agreement providing for full
payment of such amount during a period not to exceed 5 years. This Code further authorizes the Secretary to retain
and use an amount not in excess of 25 percent of the amount collected under any qualified tax collection contract for
the costs of services performed under such contract.
                                                                                                             Page 1
                                         Invoice Audit of Fees Paid Under the
                                           Private Debt Collection Initiative



Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration made a commitment to perform audits of these expenditures.
This audit was designed to determine whether amounts paid by the IRS under this initiative were
accurate, supported, and allowable through a review of contractor invoices and supporting
documentation.
This audit was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, and the Private Debt Collection Oversight unit in the Office of
Collection Filing and Payment Compliance Modernization in New Carrollton, Maryland, during
the period April 2006 through November 2007. Opinions expressed in this report pertain only to
invoices included in our sample. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective. In
addition, we conducted our audit concurrently with a program audit of the Private Debt
Collection initiative performed by the Treasury Inspector General for Tax Administration Office
of Audit Small Business and Corporate Programs staff.3 Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
    Private Debt Collection – Phase III (Audit # 200730009).
                                                                                           Page 2
                                         Invoice Audit of Fees Paid Under the
                                           Private Debt Collection Initiative




                                        Results of Review

Contract Charges and Invoice Verification Process
We examined supporting documentation obtained from the IRS Office of Procurement and the
Private Debt Collection Oversight unit for a random sample of 500 fee transactions selected from
18 invoices (see Appendix I for details). These 18 invoices had processing dates from
September 2006 to March 2007, and involved $2,677,192 in IRS payments.
The primary charges claimed by the contractors consisted of commissionable fees that were
based on a set percentage of the collection amount recovered by the contractors.

Contract charges were accurate, supported, and allowable
Our review determined that the approximately $2.7 million in fees charged on the 18 invoices
were accurate, supported, and allowable. We did identify minimal discrepancies in fee charges
that were insignificant to our overall conclusion.4 These charges were reported to the IRS under
separate cover and the IRS later informed us that these charges were remedied in subsequent
invoices outside the scope of this audit.

Invoice verification process was adequate
Contracts may be entered into and signed on behalf of the Federal Government only by
Contracting Officers (CO). The COs have the authority to administer or terminate contracts and
make related determinations and findings. They are responsible for ensuring performance of all
necessary actions for effective contracting, ensuring compliance with the terms of the contract,
and safeguarding the interests of the Government in its contractual relationships.
The requesting program office nominates a Contracting Officer’s Technical Representative
(COTR), who is the CO’s technical expert and representative in the administration of a contract
or task order. Usually, the CO will appoint the COTR by issuing a signed letter of appointment
tailored to meet the needs of each contract. The CO and the COTR are required to jointly review
all appointed duties. IRS guidance includes a sample letter of appointment that details
responsibilities of the COTR. These responsibilities include reviewing the contractor’s invoices
to ensure they accurately reflect the work completed in accordance with the requirements of the
contract, certifying acceptance, and forwarding a copy of the invoice to the CO.



4
  These fee charges (32 of the 500 transactions reviewed) totaled $297 and related to installment agreement costs
that were initially included in the contractor’s fee but were later recovered through offsets according to IRS officials.
                                                                                                                Page 3
                                       Invoice Audit of Fees Paid Under the
                                         Private Debt Collection Initiative



Additionally, IRS guidance provides a reference to the Office of Federal Procurement Policy
document, A Guide to Best Practices for Contract Administration. The Guide offers, as a
practical technique, that COTRs reviewing vouchers under cost-reimbursement contracts should
review, among other things, contractor time cards to help assess the reasonableness of direct
labor charges. The Guide also contains direction to review major cost categories, such as
subcontractor charges, to again determine the reasonableness of the claimed costs. Though the
Guide, which was published in October 1994, does not include a specific reference to
fees-for-service based contracts, we believe it is reasonable to infer that administration
requirements for cost-reimbursement contracts would also apply to contracts in which set rates
for commissionable fees are the primary charges invoiced.
Three COTRs, one for each contract, were assigned to oversee technical and billing issues. Each
month the COTRs received a download from the IRS Integrated Data Retrieval System5 that
allowed them to identify the number of valid and accurate billable fees for each contractor’s
collection recovery efforts. The COTRs used these computer results to prepare the invoices for
payment to the contractors and to identify payment discrepancies that might need adjustments.
This automated resource also served as a control for the IRS to track the status of contractor
workloads and to evaluate their collection performance. In addition, it served as a viable tool for
the IRS to verify that fee charges were accurate and accounted for as stipulated by the contract.

Contract Deliverables Were Acceptable
The Treasury Inspector General for Tax Administration Office of Audit Small Business and
Corporate Programs staff is currently performing a program audit of this initiative. The overall
objective is to evaluate the effectiveness of the implementation of the Private Debt Collection
initiative. Subobjectives include an evaluation of the appropriateness of case resolution through
case reviews, contractor’s compliance with laws and procedures, oversight and the Quality
Review process, taxpayer satisfaction survey and results, Taxpayer Advocate Service referrals,
and taxpayer complaints against the contractors. The results of that audit will be reported
separately.
In performing this audit, we limited our audit procedures to conducting interviews with the CO
and COTRs to determine whether the contractor’s deliverables were satisfactory. Based on these
limited auditing procedures, nothing came to our attention that would lead us to believe there
were significant problems with the deliverables associated with the contracts. However, a final



5
 The Integrated Data Retrieval System is a system which enables employees in IRS offices to have instantaneous
visual access to certain taxpayer accounts. Some capabilities of the System include researching account information
and requesting returns; entering transactions such as adjustments and entity changes; entering collection information
for storage and processing in the System; and automatically generating notices, collection documents, and other
outputs.
                                                                                                             Page 4
                                Invoice Audit of Fees Paid Under the
                                  Private Debt Collection Initiative



conclusion concerning contractor performance is contingent upon the results of the program
audit.




                                                                                        Page 5
                                 Invoice Audit of Fees Paid Under the
                                   Private Debt Collection Initiative



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected invoices submitted and
paid under task order numbers TIRNO-06-K-00179, TIRNO-06-K-00181, and
TIRNO-06-K-00182 were appropriate and in accordance with the contract terms and conditions.
To accomplish this objective, we:
I.     Analyzed the IRS invoice verification process prior to certifying payment to the
       contractors.
       A. Interviewed the CO and COTRs to confirm our understanding of the invoice
          verification process.
       B. Documented invoice processing risks including accuracy, supportability, and
          allowability of invoice charges and concluded as to the overall control environment.
       C. Interviewed IRS personnel involved in the administration of the contract to identify
          any concerns that existed regarding the contractor, its billing practices, or any specific
          invoices.
II.    Verified that invoice charges submitted by the contractors and paid by the IRS were
       accurate, supported, and allowable.
       A. Identified a sample selection universe from the Private Collection Agency Payment
          Summary Reports that reflected all the itemized expenses that corresponded to all
          18 invoices the IRS paid under the Private Debt Collection initiative as of April 2007.
          This universe contained 6,039 expense transactions totaling $2,677,192 that were
          processed between September 2006 and March 2007. We randomly selected
          500 transactions totaling $234,660 that represented approximately 8.8 percent of the
          $2,677,192 paid by the IRS. A random selection process was used to ensure all
          transactions had an equal chance of being selected.
          This audit did not include audit procedures to obtain evidence that
          computer-processed data, which were the basis for the Private Collection Agency
          Payment Summary Reports, were valid and reliable. Though used during this audit,
          the data in general were not considered significant to the audit’s objective or resultant
          findings. We only used the data to reasonably verify the universe from which we
          selected our sample of transactions for substantive testing of their accuracy,
          supportability, and allowability. We only concluded and reported on those
          substantive tests. Therefore, there was no adverse effect on the audit as a result of not
          including audit procedures addressing the reliability of computer-processed data.
                                                                                             Page 6
                                       Invoice Audit of Fees Paid Under the
                                         Private Debt Collection Initiative



         B. For the transactions in the sample, obtained the actual invoice and all supporting
            documentation from the IRS.
             1. Verified the mathematical accuracy of each invoice and any supporting
                documentation.
             2. Traced all invoice charges to supporting documentation.
             3. Verified whether all invoice charges were allowable under the terms and
                conditions of the task orders.
             4. Traced the claimed collection amounts to the amounts posted to the taxpayers’
                accounts through the use of the IRS Integrated Data Retrieval System.1
III.     For the invoices included in our sample, verified through interviews with responsible
         officials and reviews of project files whether the contractors’ performance and
         deliverables were acceptable, as stipulated in the task orders.




1
 The Integrated Data Retrieval System is a system which enables employees in IRS offices to have instantaneous
visual access to certain taxpayer accounts. Some capabilities of the System include researching account information
and requesting returns; entering transactions such as adjustments and entity changes; entering collection information
for storage and processing in the System; and automatically generating notices, collection documents, and other
outputs.
                                                                                                             Page 7
                               Invoice Audit of Fees Paid Under the
                                 Private Debt Collection Initiative



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Alicia P. Mrozowski, Director
Thomas J. Brunetto, Audit Manager
Gary D. Pressley, Lead Auditor
James S. Mills, Senior Auditor
Melvin Lindsey, Auditor
Niurka M. Thomas, Auditor




                                                                                        Page 8
                               Invoice Audit of Fees Paid Under the
                                 Private Debt Collection Initiative



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Director, Collection, Small Business/Self-Employed Division SE:S:C
       Director, Procurement OS:A:P




                                                                                   Page 9
